SYNOVUS REWARDS VISA® SUMMARY OF CREDIT TERMS
Interest Rates and Interest Charges

Annual Percentage Rate (APR) for Purchases

0.00% introductory APR for the first six (6) months.
After that, your APR will be: 9.24%, 12.24%, 15.24%, or 21.24% based on your
credit worthiness and other factors.
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers and
Overdraft Protection Transactions

APR for Cash Advances

0.00% introductory APR for the first six (6) months.
After that, your APR will be: 9.24%, 12.24%, 15.24%, or 21.24% based on your
credit worthiness and other factors.
This APR will vary with the market based on the Prime Rate.
24.24% (except on overdraft protection transactions)

This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
interest on purchases if you pay your entire balance by the due date of each month.

Minimum Interest Charge

None

For Credit Card Tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

Fees
Annual Fee
Transaction Fees
• Cash Advance

None
Either $10 or 4% of the amount of each cash advance, whichever is greater (except on
overdraft protection transactions.)
Either $15 or the amount of the overdraft protection transaction, whichever is less, on each
overdraft protection transaction.

• Foreign Transaction
Penalty Fees
• Late Payment
• Returned Payment

3% of each transaction (includes transactions made in U.S. dollars and cross border
transactions)
Up to $35
Up to $25

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
The variable APRs shown above are those in effect as of March 31, 2020. This information may have changed after that date. To find out what may have changed, please call us at
1-888-SYNOVUS (796-6887) or write to us at Card Services, 1111 Bay Avenue, Columbus, Georgia 31901.
Balance transfers will be applied to your account and sent to your designated payee(s) no earlier than 10 days after your account is opened and we have mailed you the account opening
disclosures. Until we have sent the balance transfer to your designated payee, you may cancel or modify your balance transfer request by calling the number on the back of your card.

3-31-20

